Fane R. Sellers #25665 and Steven Babcock #27869
Wyoming Honor Conservation Camp
P.O. Box 160
Newcastle, WY 82701

IN THE UNITED STATES SUPREME COURT
FANE R. SELLERS
STEVEN BABCOCK
FOR AND IN BEHALF OF
ALL INMATES

)
)
)
)
)
)
)
)
)

Appellants (Petitioners),
Vs.

CASE NO.

) W.S.Ct. CASE #S-20-0109
) & District Court CASE NO. 188-643
THE STATE OF WYOMING,
GOVERNOR MATT MEAD
ATTORNEY GENERAL FOR THE STATE
OF WYOMING, PETER K. MICHAEL, AND
ALL ENTITIES ACTING FOR THE
STATE OF WYOMING,
Appellees (Respondents).

)
)
)
)
)
)
)
)
)

l

PILED
SEP 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT i iq

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND SUPPORTING AFFIDAVIT
For Fane Sellers

(Pursuant to 28 U.S.C. 1915 and 28 U.S.C. 1746)
I hereby apply for leave to:
Commence this action for Class Action Lawsuit/civil rights relief
Commence this lawsuit to the UNITED STATES SUPREME COURT without prepayment
of fees or giving security therefore.
Leave to proceed in forma pauperis was sought in both the Wyoming District Court and the
1

Wyoming Supreme Court and in both cases the Courts denied the use of in forma pauperis in an
attempt to destroy the case before it could be heard. The Petitioners sought outside help to pay
the filing fees so that the case could move forward due to the significance of this case and the
violations of the United States Constitution contained therein.
In support of my application, I state that the following facts are true:
1. Iam the party initiating said action and I believe that I am entitled to the relief.
2. The nature of this action is: Class Action for Breach of Contract or Agreement
3. Iam unable to prepay the costs of this action or appeal or give security therefore because
of my poverty.
4. I own the following assets: NA
5. Do you own any cash or do you have money in a checking or savings account to include
any funds in prison accounts, and any funds of deposit with a bank, savings & loan or
certificates of deposit, outside the prison)?

Yes

If the answer is Yes, state the total value and location, including each account number,
of the items owned (list the location of each account, type of account and amount or
balance in the account): Amount stated in the CERTIFICATE OF PENAL
INSTITUTION.
6. Do you own real estate, stocks bonds, notes, automobiles or other valuable property?
(exclude ordinary household furnishings and clothing)

No

If the answer is Yes, describe the property , its location, and state its approximate value:
NA
7. Have you placed any property, assets or money in the name or custody of anyone else in
2

the last two years?

No

If the answer is Yes, give the date, describe the property, assets or money, give the name
of the person given custody of the item and the reason for the transfer.
8. Are you presently employed?

NA

Yes

If the answer is Yes, state the amount of your salary or wages per month and give the
name and address of your employer: DOC $95.70 per month
If the answer is No, state the date of last employment and the amount of the salary and
wages per month which you received: NA
9. Have you received within the past twelve months any money from any of the following
sources?
Business, profession or form of self-employment?

No

Rent payments, interest or dividends? No
Pensions, annuities or life insurance payments?

No

Social security, Veterans Administration, disability pensions workmen’s compensation.or
unemployment benefits?

No

Gifts or inheritances?

No

Any other sources?

No

10. If the answer to any of the above is Yes, describe each source of money and state the
amount received from each during the past six months.
11. List the persons who are dependent upon you for support, state your relationship to those
persons, and indicate how much you contribute toward their support each month.
a. Jaryn Sellers

son

$23.92
3

■-*5.

b. Whitney Sellers

daughter

$23.92

12. You may state briefly any additional financial or other information regarding your ability
to pay the costs of this action: I’m an inmate and we make almost nothing.
Acknowledgment
I, the undersigned, acknowledge that I have read the foregoing and that the information
contained therein is true and correct to my knowledge and belief.
I understand that a false statement or answer to any question in this affidavit will subject me to
penalties of perjury.
I declare (or certify, verify or state) under penalty of perjury under the laws of the United States
of America that the foregoing is true and correct (28 U.S.C. 1746, 18 U.S.C. 1621)

Executed at Newcastle, WY on the

Signature of Petitioner
STATE OF WYOMING

)

)SS.
COUNTY OF WESTON

)
CRISTAL N. CARPENTER - NOTARY PUBLIC
County of
Weston

State of
Wyoming
2024

Subscribed and sworn to before me this
4

Fane R. Sellers #25665 and Steven Babcock #27869
Wyoming Honor Conservation Camp
P.O. Box 160
Newcastle, WY 82701

IN THE UNITED STATES SUPREME COURT
FANE R. SELLERS
STEVEN BABCOCK
FOR AND IN BEHALF OF
ALL INMATES

)
)
)
)
)
)
)
)
)

Appellants (Petitioners),
Vs.

CASE NO.

) W.S.Ct. CASE #S-20-0109
) & District Court CASE NO. 188-643
THE STATE OF WYOMING,
GOVERNOR MATT MEAD
ATTORNEY GENERAL FOR THE STATE
OF WYOMING, PETER K. MICHAEL, AND
ALL ENTITIES ACTING FOR THE
STATE OF WYOMING,
Appellees (Respondents).

)
)
)
)
)
)
)
)
)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND SUPPORTING AFFIDAVIT
For Steven Babcock

(Pursuant to 28 U.S.C. 1915 and 28 U.S.C. 1746)
I hereby apply for leave to:
Commence this action for Class Action Lawsuit/civil rights relief
Commence this lawsuit to the UNITED STATES SUPREME COURT without prepayment
of fees or giving security therefore.
Leave to proceed in forma pauperis was sought in both the Wyoming District Court and the
6

Wyoming Supreme Court and in both cases the Courts denied the use of in forma pauperis in an
attempt to destroy the case before it could be heard. The Petitioners sought outside help to pay
the filing fees so that the case could move forward due to the significance of this case and the
violations of the United States Constitution contained therein.
In support of my application, I state that the following facts are true:
1. I am the party initiating said action and I believe that I am entitled to the relief.
2. The nature of this action is: Class Action for Breach of Contract or Agreement
3. Iam unable to prepay the costs of this action or appeal or give security therefore because
of my poverty.
4. I own the following assets: NA
5. Do you own any cash or do you have money in a checking or savings account to include
any funds in prison accounts, and any funds of deposit with a bank, savings & loan or
certificates of deposit, outside the prison)?

Yes

If the answer is Yes, state the total value and location, including each account number,
of the items owned (list the location of each account, type of account and amount or
balance in the account): Amount stated in the CERTIFICATE OF PENAL
INSTITUTION.
6. Do you own real estate, stocks bonds, notes, automobiles or other valuable property?
(exclude ordinary household furnishings and clothing)

No

If the answer is Yes, describe the property, its location, and state its approximate value:
No
7. Have you placed any property, assets or money in the name or custody of anyone else in
7

the last two years?

No

If the answer is Yes, give the date, describe the property, assets or money, give the name
of the person given custody of the item and the reason for the transfer.
8. Are you presently employed?

NA

Yes

If the answer is Yes, state the amount of your salary or wages per month and give the
name and address of your employer: DOC $60.00 per month
If the answer is No, state the date of last employment and the amount of the salary and
wages per month which you received: NA
9. Have you received within the past twelve months any money from any of the following
sources?
Business, profession or form of self-employment?

No

Rent payments, interest or dividends? No
Pensions, annuities or life insurance payments?

No

Social security, Veterans Administration, disability pensions workmen’s compensation or
unemployment benefits?

No

Gifts or inheritances?

No

Any other sources?

No

10. If the answer to any of the above is Yes, describe each source of money and state the
amount received from each during the past six months.
11. List the persons who are dependent upon you for support, state your relationship to those
persons, and indicate how much you contribute toward their support each month.
a. Katherine

daughter

$50.00
8

12. You may state briefly any additional financial or other information regarding your ability
to pay the costs of this action: I’m an inmate and we make almost nothing.
Acknowledgment
I, the undersigned, acknowledge that I have read the foregoing and that the information
contained therein is true and correct to my knowledge and belief.
I understand that a false statement or answer to any question in this affidavit will subject me to
penalties of perjury.
I declare (or certify, verify or state) under penalty of perjury under the laws of the United States
of America that the foregoing is true and correct (28 U.S.C. 1746, 18 U.S.C. 1621)

Executed at Newcastle, WY on the

]L\

day of^^Ld! 200^)

Signature of Petitioner
STATE OF WYOMING

)

)SS.
COUNTY OF WESTON

)

CRISTAL N. CARPENTER - NOTARY PUBLIC
County of

Weston

State of
Wyoming

My Commission ExpIresMarch 2L2024

